Department of Health and Human Services
                  OFFICE OF
             INSPECTOR GENERAL




  BLUE CROSS BLUE SHIELD OF
TENNESSEE DID NOT CLAIM SOME
ALLOWABLE PENSION COSTS FOR
        FISCAL YEARS
     2003 THROUGH 2009

   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Patrick J. Cogley
                                                Regional Inspector General

                                                        August 2012
                                                       A-07-12-00390
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective August 1, 2009.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine whether the following costs were allowable for Medicare
reimbursement:

    •   pension costs claimed by BCBS Tennessee for Medicare reimbursement for fiscal years
        (FY) 2003 through 2009; and

    •   BCBS Tennessee’s qualified defined benefit plan (QDBP) termination claim, dated
        November 24, 2009, for pension costs associated with the Medicare Part A contracts.

SUMMARY OF FINDINGS

BCBS Tennessee claimed pension costs of $7,025,719 for Medicare reimbursement; however,
we determined that the allowable CAS-based pension costs during this period were $7,247,152.
The difference, $221,433, constituted allowable Medicare pension costs that BCBS Tennessee
did not claim on its final administrative cost proposals (FACP) for FYs 2003 through 2009.
BCBS Tennessee did not claim these allowable Medicare pension costs primarily because it
incorrectly calculated its CAS pension cost.

In addition, BCBS Tennessee’s QDBP termination claim for pension costs was unallowable for
Medicare reimbursement. BCBS Tennessee submitted a termination claim of $444,026 for
Medicare reimbursement of pension costs that it said it would incur subsequent to the
termination of the Medicare contracts. Pursuant to CAS 412 and 413, BCBS Tennessee’s entire
QDBP termination claim of $444,026 for pension costs was unallowable for Medicare
reimbursement.




                                                i
RECOMMENDATIONS

We recommend that BCBS Tennessee:

   •   revise its FACPs for FYs 2003 through 2009 to claim the additional pension costs of
       $221,433 and

   •   withdraw its QDBP termination claim of $444,026 for pension costs associated with the
       Medicare Part A contracts.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendations
and stated that it would work directly with CMS to resolve these issues.

BCBS Tennessee’s comments are included in their entirety as Appendix B.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Blue Cross Blue Shield of Tennessee ..................................................................... 1
              Medicare Reimbursement of Pension Costs ........................................................... 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 1
               Objective ................................................................................................................. 1
               Scope ....................................................................................................................... 1
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 2

          FEDERAL REQUIREMENTS ........................................................................................... 3

          ALLOWABLE PENSION COSTS NOT CLAIMED ........................................................ 3

          UNALLOWABLE QUALIFIED DEFINED BENEFIT PLAN
            TERMINATION CLAIM .............................................................................................. 4

          RECOMMENDATIONS .................................................................................................... 5

          AUDITEE COMMENTS.................................................................................................... 5

APPENDIXES

   A: ALLOWABLE MEDICARE PENSION COSTS FOR
      BLUE CROSS BLUE SHIELD OF TENNESSEE
      FOR FISCAL YEARS 2003 THROUGH 2009

   B:     AUDITEE COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Tennessee

Blue Cross Blue Shield of Tennessee (BCBS Tennessee), doing business as Riverbend
Government Benefits Administrator, administered Medicare Part A operations under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS) until the
contractual relationship was terminated effective August 1, 2009.

Medicare Reimbursement of Pension Costs

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS-based pension costs and allocates a
share to Medicare. Under the separate calculation method, the contractor separately identifies
the pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the following costs were allowable for Medicare
reimbursement:

    •   pension costs claimed by BCBS Tennessee for Medicare reimbursement for FYs 2003
        through 2009; and

    •   BCBS Tennessee’s qualified defined benefit plan (QDBP) termination claim, dated
        November 24, 2009, for pension costs associated with the Medicare Part A contracts.

Scope

We reviewed $7,025,719 of pension costs that BCBS Tennessee claimed for Medicare
reimbursement on its final administrative cost proposals (FACP) for FYs 2003 through 2009.
Additionally, at the request of CMS, we audited the QDBP pension termination claim of
$444,026 that BCBS Tennessee submitted for the Medicare Part A contracts’ pension costs.




                                               1
Achieving our objective did not require that we review BCBS Tennessee’s overall internal
control structure. We reviewed the internal controls related to the pension costs claimed for
Medicare reimbursement to ensure that the pension costs were allocable in accordance with the
CAS and allowable in accordance with the FAR.

We performed fieldwork at BCBS Tennessee’s office in Chattanooga, Tennessee, during
November and December 2011.

Methodology

We reviewed the portions of the FAR, CAS, and Medicare contracts applicable to this audit.
Additionally, we reviewed information provided by BCBS Tennessee to identify the amount of
pension costs claimed for Medicare reimbursement for FYs 2003 through 2009, as well as the
termination claim submitted to CMS. We also determined the extent to which BCBS Tennessee
funded CAS-based pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS-based pension
costs for the Medicare segment and the “Other” segment. The CMS Office of the Actuary
calculated the allocable pension costs based on the CAS and on the results of our segmentation
review (Blue Cross Blue Shield of Tennessee Overstated the Medicare Segment Pension Assets
and Medicare’s Share of the Excess Pension Liabilities Due to the Segment Closing,
A-07-12-00389).

In our review, we used information that BCBS Tennessee’s actuarial consulting firms provided.
The information included assets, liabilities, normal costs, contributions, benefit payments,
investment earnings, and administrative expenses. We examined BCBS Tennessee’s accounting
records, pension plan documents, annual actuarial valuation reports, and Department of
Labor/Internal Revenue Service Forms 5500.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

BCBS Tennessee claimed pension costs of $7,025,719 for Medicare reimbursement; however,
we determined that the allowable CAS-based pension costs during this period were $7,247,152.
The difference, $221,433, constituted allowable Medicare pension costs that BCBS Tennessee
did not claim on its FACPs for FYs 2003 through 2009. BCBS Tennessee did not claim these
allowable Medicare pension costs primarily because it incorrectly calculated its CAS pension
cost.

In addition, BCBS Tennessee’s QDBP termination claim for pension costs was unallowable for
Medicare reimbursement. BCBS Tennessee submitted a termination claim of $444,026 for
Medicare reimbursement of pension costs that it said it would incur subsequent to the



                                               2
termination of the Medicare contracts. Pursuant to CAS 412 and 413, BCBS Tennessee’s entire
QDBP termination claim of $444,026 for pension costs was unallowable for Medicare
reimbursement.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

BCBS Tennessee submitted Medicare pension costs of $7,025,719 for Medicare reimbursement
on its FACPs for FYs 2003 through 2009. 1 We calculated the allowable Medicare pension costs
based on separately computed CAS-based pension costs for the Medicare segment and the
“Other” segment in accordance with CAS 412 and 413. We determined that the allowable CAS-
based pension costs for FYs 2003 through 2009 were $7,247,152.

Thus, BCBS Tennessee did not claim $221,433 of allowable Medicare pension costs on its
FACPs for FYs 2003 through 2009. This underclaim occurred primarily because BCBS
Tennessee incorrectly calculated its CAS pension cost.

The table on the following page compares allowable CAS-based pension costs with the pension
costs claimed on BCBS Tennessee’s accounting documents. Appendix A contains additional
details on allowable pension costs.




1
 The allowable pension costs for FY 2009 were attributable to the pension costs for October 1, 2008, through
August 1, 2009.



                                                        3
            Comparison of Allowable Pension Costs and Claimed Pension Costs

                                   Medicare Pension Costs
                                                    Claimed by
                                   Allowable          BCBS
                    Fiscal Year    Per Audit        Tennessee     Difference
                       2003          $948,695          $949,439         ($744)
                       2004         1,093,236         1,117,351      (24,115)
                       2005         1,321,783         1,256,508         65,275
                       2006         1,412,227         1,298,219       114,008
                       2007         1,321,634         1,231,548         90,086
                       2008           661,493           679,552      (18,059)
                       2009           488,084           493,102        (5,018)
                       Total       $7,247,152        $7,025,719     $221,433

The Medicare contracts require BCBS Tennessee to calculate pension costs for Medicare
reimbursement in accordance with CAS 412 and 413. BCBS Tennessee based its claim for
Medicare reimbursement on CAS-based pension costs. However, because BCBS Tennessee
computed pension costs incorrectly, it understated those CAS-based pension costs. As a result,
BCBS Tennessee did not claim $221,433 of allowable pension costs.

UNALLOWABLE QUALIFIED DEFINED BENEFIT PLAN
TERMINATION CLAIM

BCBS Tennessee’s QDBP termination claim for pension costs was unallowable for Medicare
reimbursement. BCBS Tennessee submitted a termination claim of $444,026 for Medicare
reimbursement of pension costs that it said it would incur subsequent to the termination of the
Medicare contracts. Pursuant to CAS 412 and 413, BCBS Tennessee’s entire QDBP termination
claim of $444,026 for pension costs was unallowable for Medicare reimbursement.

BCBS Tennessee’s contractual relationship with CMS was terminated effective August 1, 2009.
On November 24, 2009, BCBS Tennessee submitted a termination claim of $444,026 to seek
reimbursement for unamortized QDBP pension costs. This termination claim was based on a
2003 settlement charge computed under Financial Accounting Standard (FAS) No. 88.

The Medicare contracts require BCBS Tennessee to calculate pension costs in accordance with
the provisions of CAS 412 and 413. However, BCBS Tennessee based its termination claim on a
FAS 88 amount that did not comply with these provisions. As a result, BCBS Tennessee’s
QDBP termination claim of $444,026 for pension costs was unallowable for Medicare
reimbursement.




                                                4
RECOMMENDATIONS

We recommend that BCBS Tennessee:

   •   revise its FACPs for FYs 2003 through 2009 to claim the additional pension costs of
       $221,433 and

   •   withdraw its QDBP termination claim of $444,026 for pension costs associated with the
       Medicare Part A contracts.

AUDITEE COMMENTS

In written comments on our draft report, BCBS Tennessee concurred with our recommendations
and stated that it would work directly with CMS to resolve these issues.

BCBS Tennessee’s comments are included in their entirety as Appendix B.




                                              5
APPENDIXES
                                                                                                 Page 1 of 4

                         APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR
                                BLUE CROSS BLUE SHIELD OF TENNESSEE
                                 FOR FISCAL YEARS 2003 THROUGH 2009

                                                       Total          "Other"       Medicare        Total
     Date                    Description              Company         Segment       Segment        Medicare

     2002         Allocable Pension Cost         1/                  $14,366,799     $668,557

     2003         Contributions                  2/   $15,000,000    $15,000,000           $0
                  Discount for Interest          3/   ($1,168,887)   ($1,168,887)          $0
January 1, 2003   Present Value Contributions    4/   $13,831,113    $13,831,113           $0
                  Prepayment Credit Applied      5/   $17,600,734    $16,824,032     $776,702
                  Present Value of Funding       6/   $31,431,847    $30,655,145     $776,702

January 1, 2003   CAS Funding Target             7/   $17,600,734    $16,824,032     $776,702
                  Percentage Funded              8/                      100.00%      100.00%
                  Funded Pension Cost            9/                  $16,824,032     $776,702
                  Allowable Interest            10/                           $0           $0
                  Allocable Pension Cost                             $16,824,032     $776,702
     2003         Fiscal Year Pension Costs     11/                  $16,209,724     $749,666
                  Medicare LOB* Percentage      12/                        1.46%       94.98%

                  Allowable Pension Cost        13/                    $236,662      $712,033        $948,695

     2004         Contributions                       $12,500,000    $12,500,000           $0
                  Discount for Interest                 ($971,526)     ($971,526)          $0
January 1, 2004   Present Value Contributions         $11,528,474    $11,528,474           $0
                  Prepayment Credit Applied           $19,165,037    $18,275,750     $889,287
                  Present Value of Funding            $30,693,511    $29,804,224     $889,287

January 1, 2004   CAS Funding Target                  $19,165,037    $18,275,750     $889,287
                  Percentage Funded                                      100.00%      100.00%
                  Funded Pension Cost                                $18,275,750     $889,287
                  Allowable Interest                                          $0           $0
                  Allocable Pension Cost                             $18,275,750     $889,287
     2004         Fiscal Year Pension Costs                          $17,912,821     $861,141
                  Medicare LOB* Percentage                                 1.60%       93.67%

                  Allowable Pension Cost                               $286,605      $806,631      $1,093,236

     2005         Contributions                       $25,500,000    $25,500,000            $0
                  Discount for Interest               ($1,853,567)   ($1,853,567)           $0
January 1, 2005   Present Value Contributions         $23,646,433    $23,646,433            $0
                  Prepayment Credit Applied           $21,827,742    $20,742,577    $1,085,165
                  Present Value of Funding            $45,474,175    $44,389,010    $1,085,165

January 1, 2005   CAS Funding Target                  $21,827,742    $20,742,577    $1,085,165
                  Percentage Funded                                      100.00%       100.00%
                  Funded Pension Cost                                $20,742,577    $1,085,165
                  Allowable Interest                                          $0            $0
                  Allocable Pension Cost                             $20,742,577    $1,085,165
     2005         Fiscal Year Pension Costs                          $20,125,870    $1,036,196
                  Medicare LOB* Percentage                                 1.80%        92.60%

                  Allowable Pension Cost                               $362,266      $959,517      $1,321,783
                                                                                           Page 2 of 4




                                                 Total          "Other"       Medicare        Total
     Date                    Description        Company         Segment       Segment        Medicare

     2006         Contributions                 $14,500,000    $14,500,000            $0
                  Discount for Interest         ($1,074,074)   ($1,074,074)           $0
January 1, 2006   Present Value Contributions   $13,425,926    $13,425,926            $0
                  Prepayment Credit Applied     $22,452,532    $21,376,030    $1,076,502
                  Present Value of Funding      $35,878,458    $34,801,956    $1,076,502

January 1, 2006   CAS Funding Target            $22,452,532    $21,376,030    $1,076,502
                  Percentage Funded                                100.00%       100.00%
                  Funded Pension Cost                          $21,376,030    $1,076,502
                  Allowable Interest                                    $0            $0
                  Allocable Pension Cost                       $21,376,030    $1,076,502
     2006         Fiscal Year Pension Costs                    $21,217,667    $1,078,668
                  Medicare LOB* Percentage                           1.84%        94.73%

                  Allowable Pension Cost                         $390,405     $1,021,822     $1,412,227

     2007         Contributions                 $11,800,000    $11,800,000           $0
                  Discount for Interest           ($874,074)     ($874,074)          $0
January 1, 2007   Present Value Contributions   $10,925,926    $10,925,926           $0
                  Prepayment Credit Applied     $23,812,020    $22,879,426     $932,594
                  Present Value of Funding      $34,737,946    $33,805,352     $932,594

January 1, 2007   CAS Funding Target            $23,812,020    $22,879,426     $932,594
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                          $22,879,426     $932,594
                  Allowable Interest                                    $0           $0
                  Allocable Pension Cost                       $22,879,426     $932,594
     2007         Fiscal Year Pension Costs                    $22,503,577     $968,571
                  Medicare LOB* Percentage                           1.89%       92.54%

                  Allowable Pension Cost                         $425,318      $896,316      $1,321,634

     2008         Contributions                 $46,500,000    $46,500,000           $0
                  Discount for Interest         ($3,444,444)   ($3,444,444)          $0
January 1, 2008   Present Value Contributions   $43,055,556    $43,055,556           $0
                  Prepayment Credit Applied     $11,172,126    $10,839,370     $332,756
                  Present Value of Funding      $54,227,682    $53,894,926     $332,756

January 1, 2008   CAS Funding Target            $11,172,126    $10,839,370     $332,756
                  Percentage Funded                                100.00%      100.00%
                  Funded Pension Cost                          $10,839,370     $332,756
                  Allowable Interest                                    $0           $0
                  Allocable Pension Cost                       $10,839,370     $332,756
     2008         Fiscal Year Pension Costs                    $13,849,384     $482,716
                  Medicare LOB* Percentage                           1.63%       90.27%

                  Allowable Pension Cost                         $225,745      $435,748        $661,493
                                                                                                                          Page 3 of 4


                                                                      Total             "Other"           Medicare            Total
         Date                      Description                       Company            Segment           Segment            Medicare

         2009           Contributions                                        $0                 $0                 $0
                        Discount for Interest                                $0                 $0                 $0
   January 1, 2009      Present Value Contributions                          $0                 $0                 $0
                        Prepayment Credit Applied                    $9,850,736         $9,596,425           $254,311
                        Present Value of Funding                     $9,850,736         $9,596,425           $254,311

   January 1, 2009      CAS Funding Target                           $9,850,736         $9,596,425           $254,311
                        Percentage Funded                                                  100.00%            100.00%
                        Funded Pension Cost                                             $9,596,425           $254,311
                        Allowable Interest                                                      $0                 $0
                        Allocable Pension Cost                                          $9,596,425           $254,311
         2009           Fiscal Year Pension Costs                                      $12,306,268           $337,500
                        Medicare LOB* Percentage                                             1.42%             92.84%

                        Allowable Pension Cost                14/                         $174,749           $313,335          $488,084


  * Line of business.

ENDNOTES

1/ The allocable Cost Accounting Standards (CAS) pension cost is the amount of pension cost that may be allocated for contract cost
   purposes. We obtained the 2002 calendar year allocable pension cost from our prior review (A-07-04-03054, issued
   October 4, 2004).

2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
   contributions included deposits made during the plan year (PY) and accrued contributions deposited after the end of the PY but
   within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the
   pension segmentation review (A-07-12-00389). The amounts shown for the “Other” segment represent the difference between the
   Total Company and the Medicare segment.

3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount the
   contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the difference
   between the present value of contributions (at the valuation interest rate) and actual contribution amounts.

4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of the
   PY. For purposes of this Appendix, we deemed deposits made after the end of the PY to have been made on the final day of the
   PY, consistent with the method mandated by the Employee Retirement Income Security Act used prior to the implementation of
   the Pension Protection Act.

5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is
   created when contributions, plus interest, exceed the end-of-year CAS funding target. A prepayment credit is carried forward, with
   interest, to fund future CAS pension costs.

6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
   that is available to cover the CAS funding target measured at the first day of the PY.

7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal
   Acquisition Regulation (FAR) 31.205-6(j)(2)(i).
                                                                                                                           Page 4 of 4



 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the PY. Because any
    funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1) (as amended),
    the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding divided by the
    CAS funding target. For purposes of illustration, the percentage of funding has been rounded to four decimal places.

 9/ We computed the funded CAS-based pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS-based pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding target,
    less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

11/ We converted the allocable pension cost to a fiscal year (FY) basis (October 1 through September 30). We calculated the FY
    pension costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs.

12/ We calculated allowable pension costs of the Medicare and “Other” segments based on the Medicare line of business (LOB)
    percentage of each segment. We determined the Medicare LOB percentages based upon information provided by Blue Cross Blue
    Shield of Tennessee (BCBS Tennessee).

13/ We computed the allowable Medicare pension cost as an FY pension cost multiplied by the Medicare LOB percentage. Pursuant
    to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare
    segment’s direct pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.

14/ BCBS Tennessee terminated its Medicare contract on August 1, 2009. Therefore, the 2009 FY pension cost is calculated as 1/4 of
    the prior year’s cost plus all of the current year’s cost. The 2009 allowable pension cost is based on a January 1, 2009, to August
    1, 2009, cost.
                       APPENDIX B: AUDITEE COMMENTS




  ~~~~~:.plans                 fora better    life~
  1 Cameron Hill Circle
  Cha ttanooga, TN 37402
  bcbst.co m


July 13, 201 2

Patrick J. Cogley
Regional Inspector General for Audit Services
Department of Health & Human Services
Office oflnspector General
Office of Audit Services, Region VII
601 East 12tl' Street, Room 0429
Kansas City, MO 64016

Re: Report Number: A-07-1 2-00390

Mr. Cogley:

This letter is in response to your letter dated June 22, 2012, and the attached draft report entitled Blue
Cross Blue Shield ofTennessee Did Not Claim Some Allowable Pension Costs for Fiscal Years 2003
Through 2009. As requested, following are our comments on the two summary recommendations set
forth in the report including a statement of concurrence as well as a statement describing the nature of
the corrective action taken or planned to be taken.


Recommendation: Revise FACP' s to claim additional pension costs of $221.433

We concur with this recommendation and will work directly with CMS to resolve this issue because we
no longer have access to the CAFM system.


Recommendation: Withdraw ODBP termination claim of $444,026

We concur with this recommendation and will work with CMS to resolve this issue.

If you have questions or comments regarding this response or require anything further from us please
contact me by e-mail at Ralph Woodard@BCBST.com or by phone at 423-535-5192.


Sincerely,


 j .~ WCJUlJ-oA.-/(J-1/
T. Ralph Woodard, Jr.
Chief Financial Officer, Riverbend Government Benefits Administrator, Toe.




                  6fueCross &lueShreld of Tennessee.. Inc.. an lndept nd«nt license~ of the OlueCron 81~S.h leld Association
